No.
IN THE SUPREME COURT OF THE UNITED STATES

JOVANI JACOBO,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Jovani Jacobo, by and through his attorney, Richard H. McWilliams, who.
was previously appointed under the Criminal Justice Act by the United States Court of
Appeals for the Eighth Circuit, moves this Court for an Order allowing him to proceed in
forma pauperis on this petition for writ of certiorari. Pursuant to Rule 39.1 of this Court and
18 U.S.C. §3006A(d)(6), Petitioner is not required to submit the affidavit described in 28
U.S.C. §1915(a) and prescribed in Form 4 of the Federal Rules of Appellate Procedure.
Respectfully submitted,
Jovani Jacobo, Petitioner,
—

^

JU

By.

RICHARD H. MCWILLIAMS
Assistant Federal Public Defender
222 South 15th Street, Suite 300N
Omaha, NE 68102

(402) 221-7896
fax: (402) 221-7884
e-mail: rich_mcwilliams@fd.org

CERTIFICATE OF SERVICE
THE UNDERSIGNED hereby affirms that a true and exact copy of the foregoing Motion
for Leave to Proceed in Forma Pauperis was duly served, by regular United States mail,
postage prepaid on the 10th day of September, 2021, upon the following parties:
Brian H. Fletcher
Acting U. S. Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530

Daniel D. Packard
Assistant United States Attorney
1620 Dodge Street
Suite 1400
Omaha, NE 68102-1506

Jan W. Sharp
Acting United States Attorney
1620 Dodge Street
Suite 1400
Omaha, NE 68102-1506

2

